OIG Audit Report

The United States Marshals Service Intergovernmental Service Agreement for the Detention Services with the Blount County, Tennessee, Sheriffs Office
Office of the Inspector General



Executive Summary


The Office of the Inspector General, Audit Division  has audited costs incurred in relation to the Intergovernmental Service  Agreement (IGA) between the United States Marshals Service (USMS), and the  Blount County, Tennessee, Sheriff’s Office.   Under the agreement, the Blount County Jail houses adult male and female  detainees at a jail day rate of $45.  The  Federal Bureau of Prisons (BOP) and Department of Homeland Security (DHS) also  house detainees at the jail under the $45 rate IGA.1  The current IGA is effective until September  30, 2006.
 Our  audit objectives were to determine whether: (1) information in the Cost Sheet  for Detention Services is accurate, complete, and supported by adequate  documentation; and (2) the daily rate is supported by adequate documentation  and is based on reasonable, allocable, and allowable costs in accordance with  applicable laws, regulations, guidelines, terms and conditions of the IGA.
 For  the period July 1, 2002, through May 31, 2005, the USMS, the BOP, and the DHS  paid or were billed a total of $6,088,909 to house federal detainees.  We question $5,588,035 paid by and billed to  the USMS and the BOP.2  We also recommend that $2,849,850 in future  payments to Blount County be put to better use elsewhere unless the USMS and  Blount County implement the recommendations outlined in our report.  Details of the billings and payments are  shown below.

The USMS paid Blount County $1,397,230 for fiscal  year (FY) 2003 and $1,990,845 for FY 2004 to house an average of 85 and 121  detainees per day.  Blount County also  billed the USMS $2,038, 680 during FY 2005 to house an average of 136 detainees  per day.  Housing payments for FY 2003,  FY 2004, and billings for FY 2005 total $5,426,755.  The USMS also paid Blount County $31,402  during FYs 2003 and 2004 for transportation guards, hospital guards, mileage  for transporting detainees, medication, and x-rays.


The BOP paid Blount County $50,085 for FY 2003 and  $60,345 for FY 2004 to house an average of three and four detainees per  day.  Blount County also billed the BOP  $50,850 during FY 2005 to house an average of three detainees per day.  Housing payments for HY 2003, FY 2004, and  billings for FY 2005 total $161,280.


The DHS paid Blount County $217,554 for FY 2003 and  $210,915 for FY 2004 to house an average of 13 detainees per day during both  fiscal years.  Blount County also billed  the DHS $72,405 during FY 2005 to house an average of five detainees per  day.  Housing payments for FY 2003, FY  2004, and billings for FY 2005 total $500,874. 3

According to a Blount County official, the  jail also housed adult detainees for the Federal Bureau of Investigations, the  Drug Enforcement Administration, and the National Parks Service, but not during  the period covered by our audit.
The  USMS entered into the agreement with Blount County on September 24, 1999, for a  temporary jail rate of $45.  The  temporary rate was made permanent effective October 1, 2004, and remains in  effect until September 30, 2006.4  However,  based on our audit of Blount County’s FY 2003 and FY 2004 records, the approved  $45 rate is not supported.  We  categorized our findings into two broad areas related to the daily count  records and jail costs.  The details of  our analysis are shown below.
Support for the  Daily Count
 The USMS’s instructions for  preparing the Cost Sheet for Detention Services state that “Prisoner population  data must be submitted for the same accounting period as the cost data  submitted . . . .  The average daily prisoner  population data should be verifiable to daily count logs or similar control  documents.”  In addition, 28 Code of  Federal Regulations (CFR), Part 66, requires that organizations participating  in the agreement should retain all financial records, supporting documents,  statistical records, and other records pertaining to contracts or sub-awards  under the IGA for at least 3 years.
 We requested Blount County’s records of  the daily physical count of detainees for FYs 2003 and 2004; however, Blount  County did not retain records of daily counts for FY 2003 and was not able to  provide information to verify abnormally low counts reflected in its records  for FY 2004.  We also found that Blount  County did not use the daily count records to calculate its average daily  population.  Instead, Blount County used  information contained in its automated booking system.  The booking system may not be a reliable  source for the daily count because, according to Blount County officials, an  arrestee who is booked and released on the same day is counted as a detainee  for housing.  Because Blount County’s  daily counts are not supported in accordance with USMS requirements, we  question $5,588,035, which represents all reimbursement received by Blount  County from the USMS and the BOP for the period July 1, 2002, through May 31,  2005, as unsupported.  We also question projected  reimbursements of $2,849,850 for the period June 1, 2005, through September 30,  2006, as funds to be put to better use. 5   We recommend that the USMS update and clarify  its requirements for daily count records to be maintained by Blount County and  other jails.
 The USMS may remedy the dollar-related  findings associated with this finding by determining that the Blount County  method for counting population is sufficient to meet the intent of the USMS  criteria for counting population.  Should  the USMS take that action, it will then need to address our findings pertaining  to unsupported and unallowable costs.
Unsupported and  Unallowable Costs
 We audited Blount County’s costs to  operate the jail for FYs 2003 and 2004 and found that the jail day rate of $45  was overstated for both years.  We  determined the audited rate for FY 2003 was $36.11 and the audited rate for FY  2004 was $34.33. 6  These rates are lower than the awarded rate because  we took exception to $1.6 million in Blount County costs for FY 2003 and $1.7  million in costs for FY 2004.  The  details of our exceptions are presented in the body of this report.  The largest exceptions pertain to unsupported  interest expense, unsupported depreciation expense, and unallowable medical  expense.
 Based on the audited rates, the USMS  overpaid Blount County $276,028 for FY 2003, $472,080 for FY 2004, and $483,394  for FY 2005 through May 2005 (a total of $1,231,502).  Similarly, the BOP overpaid Blount County  $9,895 for FY 2003, $14,309 for FY 2004, and $12,057 for FY 2005 through May  2005 (a total of $36,261).  In addition,  if our audited rate for FY 2004 is used for remaining FY 2005 payments to  Blount County, the USMS will have funds to be put to better use totaling  $703,196 and the BOP will have funds to be put to better use totaling $17,584. 7 
 Our findings are described in detail in  the Findings and Recommendations section of this report.  Our audit scope and methodology appear in  Appendix IV.


 

Footnotes

For the purposes of this report, the word  “detainee” is synonymous with the word inmate, offender, people incarcerated,  or prisoner.
We audited $3,926,974 paid to Blount County  by the USMS, the BOP, and the DHS during FY 2003 and FY 2004, which covered the  period July 1, 2002, through June 30, 2004.   We reviewed an additional $2,161,935 that Blount billed the USMS, the  BOP and the DHS during FY 2005, which covered July 1, 2004 through May 31,  2005.
See page 2 of this report for a note about our  concerns related to the payments related to housing detainees.
Blount County has another agreement with the  USMS to house juvenile detainees at a rate of $80 for the USMS, the BOP, and  the DHS but we did not audit this agreement because Blount County received only  $3,920 from the USMS under that agreement and the juveniles were housed in a  facility separate from the adult detainees.   Blount also houses adult detainees for the State of Tennessee at a jail  rate that, by state law, may not exceed $32 regardless of Blount County’s  costs.
Since the DHS uses the same IGA, it is  affected by this finding at $500,874 for costs we consider as questioned costs  and $98,550 we consider as funds to be put to better use.  Overall, we identified questioned costs  totaling $6,088,909 and funds to be put to better use totaling $2,948,400 for  the USMS, the BOP, and the DHS for the periods July 1, 2002, through May 31  2005, and June 1, 2005, through September 30, 2006, respectively.
These  audited rates assume that Blount’s population data is usable for purposes of  calculating a rate, which it may not be as discussed previously.
Since the DHS uses the same IGA, it is  affected by this finding at $110,158 for costs we consider as questioned costs  and $24,925 we consider as funds to be put to better use.  Overall, we identified questioned costs  totaling $1,377,921 and funds to be put to better use totaling $745,705 for the  USMS, the BOP, and the DHS for the periods July 1, 2002, through May 31, 2005,  and June 1, 2005, through September 30, 2006, respectively.





 




Return to OIG Home Page